No. 20-1141
IN THE

Supreme Court of the United States
IN RE GRAND JURY INVESTIGATION,
USAO NO. 2018R01761
(GRAND JURY SUBPOENAS TO PAT ROE)
DOE COMPANY,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
On Petition for a Writ of Certiorari to the United
States Court of Appeals for the Ninth Circuit

CERTIFICATE OF SERVICE

I am a member of the Bar of this Court, and I hereby certify pursuant to
Supreme Court Rules 15.6, 29.3, 29.4, and 29.5 that I have, this 15th day of June,
2021, served three copies of the Reply Brief for Petitioner upon each party
separately represented in this proceeding by causing them to be delivered to a thirdparty commercial carrier, Federal Express, for delivery, addressed to counsel of
record at the address listed below:
Elizabeth B. Prelogar
Acting Solicitor General of the United States
U.S. Department of Justice
950 Pennsylvania Avenue NW, Room 5616
Washington, D.C. 20530
Counsel of Record for Respondent
I further certify that all persons required to be served have been served.

____________________________
Andrew Kim
GOODWIN PROCTER LLP
1900 N Street, N.W.
Washington, DC 20036
andrewkim@goodwinlaw.com
(202) 346-4000
June 15, 2021

Counsel for Petitioner

